                                     Office of Inspector General
                                    Corporation for National and
                                             Community Service




 AGREED-UPON PROCEDURES OF CORPORATION FOR
   NATIONAL AND COMMUNITY SERVICE GRANTS
        AWARDED TO SERVEMINNESOTA

                       OIG REPORT 08-14




                               Prepared by:

                    Mayer Hoffman McCann P.C.
                 Conrad Government Services Division
                 12761 Darby Brooke Court, Suite 201
                      Woodbridge, Virginia 22192




This report was issued to Corporation management on March 28, 2008. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
September 29, 2008 and complete its corrective actions by March 28, 2009.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                    NATIONAL&:
                                    COMMUNITY
                                    SERVICEr..U X:
                          OFFICE OF INSPECTOR GENERAL


                                          March 28, 2008


TO:            Kristin McSwain
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Carol Bates   c....~~£y.:::fl:g,
               Assistant Inspector General for Audit


SUBJECT:       Report 08-14, Agreed-Upon Procedures of Corporation for National and
               Community Service (Corporation) Grants Awarded to ServeMinnesota


We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann P.e. (MHM) to perform agreed-upon procedures in its review of Corporation grants
awarded to ServeMinnesota. The contract required that MHM conduct its review in
accordance with generally accepted goverrunent auditing standards.

MHM is responsible for the attached report, dated March 6, 2008, and the conclusions
expressed therein. We do not express opinions on the ServeMinnesota's Consolidated
Schedule of Award costs; conclusions on the effectiveness of internal controls; or compliance
with laws, regulations, and grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings
in this report is due by September 29, 2008. Notice of final action is due by March 28,2009.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:   Audrey Suker, Executive Director, ServeMinnesota
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator
      Ronald E. Rolwes, CPA, CFE, Shareholder, Mayer Hoffman
         McCann P.C., Conrad Goverrunent Services Division


                       1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                         202-606-9390 * Hotline: 800-452-8210 * www.cncsoig.gov         us~~-=
                                                                                        Freedom Cor·
                           Senior Corps   * AmeriCorps * Learn and Serve America        JV.ake a Difference. Volunt
    AGREED-UPON PROCEDURES OF CORPORATION FOR NATIONAL AND COMMUNITY
               SERVICE GRANTS AWARDED TO SERVEMINNESOTA

                                   Table of Contents

                                                                             Page

Executive Summary                                                             1

Independent Accountants’ Report on Applying Agreed-Upon Procedures            6

   Results – Costs Claimed                                                    7

      Consolidated Schedule of Award Costs                                    8

      Exhibit A:    Schedule of Award and Claimed Costs – AmeriCorps          9
                    Grants

      Schedule A-1 – Duluth Area Family YMCA                                 10

      Schedule A-2 – Minnesota Literacy Council                              11

      Schedule A-3 – CommonBond Communities                                  13

      Schedule A-4 – Red Lake Band of Chippewa Indians                       14

      Schedule A-5 – St. Paul Neighborhood Network                           15

      Schedule A-6 – Admission Possible                                      16

      Exhibit B:    Schedule of Award and Claimed Costs – Administrative     17
                    Grant

      Exhibit C:    Schedule of Award and Claimed Costs – PDAT Grant         18

      Exhibit D:    Schedule of Award and Claimed Costs – Disability Grant   19

   Results – Compliance and Internal Control                                 20

Appendix A – ServeMinnesota’s Response to Draft Report

Appendix B – Corporation for National and Community Service’s Response to
             Draft Report
                                EXECUTIVE SUMMARY




The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-
upon procedures of grant cost and compliance for Corporation-funded Federal assistance
provided to ServeMinnesota.

Results

As a result of applying our procedures, we questioned claimed Federal-share costs of
$56,847, matching costs of $104,648, and education awards of $10,450. A questioned cost is
an alleged violation of provision of law, regulation, contract, grant, cooperative agreement,
or other agreement or document governing the expenditure of funds; or a finding that, at the
time of testing, such cost is not supported by adequate documentation. The detailed cost
results of our agreed-upon procedures are presented in the Consolidated Schedule of Award
Costs and supporting exhibits and schedules.

ServeMinnesota claimed total costs of $10,777,650 from April 1, 2005, through June 30,
2007. As a result of testing a judgmentally selected sample of transactions, we questioned
costs claimed, as shown in the following table.




                                             1
                                                       Federal           Grant       Education
                 Description by Grant                   Share            Match        Award
 03ACHMN001
  Unsupported Costs                                $     23,078      $     64,743    $           -
  Credits Not Applied                                            -          3,116                -
  Cost Claimed to the Wrong Grant                         1,777             6,182                -
  Costs Questioned for Allowability                         25              5,459                -
  Unsupported Member Service Hours                            -                 -         9,450
  Costs Not in the Approved Budget                       19,911            22,515             -
      Subtotal                                     $     44,791      $    102,015    $    9,450

 04AFHMN001
  Unsupported Costs                                $       411       $      1,548    $           -
  Credits Not Applied                                      417              1,367                -
  Costs Claimed to the Wrong Grant                        5,876             (282)             -
  Unsupported Member Service Hours                            -                 -         1,000
     Subtotal                                      $      6,704      $      2,633    $    1,000

 06CAHMN001 - Costs Questioned for Allowability    $      1,106      $           -   $           -


 06PTHMN001 - Cost Questioned for Allowability     $      2,646      $           -   $           -

 06CDHMN001 - Cost Questioned for Allowability     $      1,600      $           -   $           -


                                           Total   $     56,847      $    104,648    $   10,450


The procedures we performed did not result in questioned costs for the Education Award
Grant (05ESHMN001).

AmeriCorps members who successfully complete terms of service are eligible for education
awards and accrued interest awards (interest forbearance) funded by the National Service
Trust. These award amounts are not funded by Corporation grants and thus are not costs
claimed by ServeMinnesota. As part of our agreed-upon procedures, however, we
determined the effect of audit findings on eligibility for education and accrued interest
awards. Using the same criteria described above, we questioned education awards of
$10,450 due to non-compliance with program requirements, but did not question accrued
interest awards.

Details related to these questioned costs and awards appear in the Independent Accountants’
Report on Applying Agreed-Upon Procedures that follows.

                                            2
The detailed results of our agreed-upon procedures revealed instances of non-compliance
with grant provisions, regulations, or Office of Management and Budget (OMB)
requirements, as shown below under the Compliance and Internal Control section. Issues
identified included:

            •   Lack of controls or controls not implemented over reporting and recording of
                Federal and match costs;

            •   Costs questioned for allowability;

            •   Late and missing member forms, progress reports, expense reports, and
                Financial Status Reports (FSR);

            •   Lack of adequate procedures to ensure that members signed their contracts
                before starting service and that the subgrantees entered enrollment
                information into the Web-Based Reporting System (WBRS) in a timely
                manner; and

            •   Costs claimed were not in the approved budget.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to State commissions, such as
ServeMinnesota, and other entities to assist in the creation of full-time and part-time national
and community service programs.

ServeMinnesota is located in Minneapolis, Minnesota. In 2002, it separated from the State
government and became a non-profit organization. It has been subject to the Single Audit
Act and has received unqualified opinions on its financial statements and the audit of its
Major Federal Awards. ServeMinnesota is staffed with an Executive Director and seven
employees and supported by a contractor, who is a chief financial officer.

All accounting functions are performed in house. ServeMinnesota performs monitoring on
its subgrantees based on risk. The types of monitoring and how often it occurs depends upon
the risk factors at each subgrantee. Tools used for onsite monitoring include program and
fiscal compliance. In addition to onsite monitoring, ServeMinnesota performs a quarterly
desk review of member timesheets and eligibility documentation.

As illustrated in the following table, ServeMinnesota received grants totaling about
$17.2 million for various Corporation programs, and claimed costs of about $10.8 million.
Of the amount of funding authorized, ServeMinnesota awarded approximately $16 million to
its AmeriCorps subgrantees.




                                               3
                                                                         Claimed
                                                        Funding        Within Testing
                                                       Authorized         Period
   03ACHMN001 – AmeriCorps Competitive               $ 8,605,345       $ 4,929,500
   06ACHMN001 – AmeriCorps Competitive                  4,370,024        2,218,904
   04AFHMN001 – AmeriCorps Formula                      3,058,182        2,745,284
                      Total AmeriCorps               $ 16,033,551      $ 9,893,688

   06CAHMN001 – Administrative                            494,949          376,443

   06PTHMN001 – PDAT                                      311,500          225,597

   06CDHMN001 – Disability                                326,410          227,768

   05ESHMN001 – Education Award Grant                      60,000           54,154

                  Total – Grants Administered        $ 17,226,410 $ 10,777,650

 We compared the inception-to-date drawdown amounts with the amounts reported in the last
 FSR submitted to each grant and determined that the drawdowns were reasonable.

 Agreed-Upon-Procedures Scope

 The agreed-upon procedures covered the allowability, allocability, and reasonableness of
 financial transactions claimed under funding provided by the Corporation for the following
 awards, as well as grant match costs. We also performed tests to determine compliance with
 grant terms and provisions. We performed our agreed-upon procedures during the period
 August 27 through November 7, 2007.

          Program           Award Number            Award Period             Testing Period
AmeriCorps – Competitive    03ACHMN001           09/01/03 – 08/31/06      04/01/05 – 08/31/06
AmeriCorps – Competitive    06ACHMN001           08/10/06 – 09/09/09      08/10/06 – 03/31/07
AmeriCorps – Formula        04AFHMN001           08/01/04 – 10/31/07      04/01/05 – 03/31/07
Administrative              06CAHMN001           01/01/06 – 12/31/09      01/01/06 – 06/30/07
PDAT                        06PTHMN001           01/01/06 – 12/31/08      01/01/06 – 06/30/07
Disability                  06CDHMN001           01/01/06 – 12/31/08      01/01/06 – 06/30/07
Education Award             05ESHMN001           08/01/05 – 07/31/08      08/01/05 – 06/30/07

 The procedures performed, based on the OIG’s agreed-upon-procedures program dated
 February 2007, have been included in the Independent Accountants’ Report on Applying
 Agreed-Upon Procedures section of this report.




                                             4
Exit Conference

The contents of this report were discussed with the Corporation and ServeMinnesota at an
exit conference held in Minneapolis, Minnesota, on November 27, 2007. In addition, we
provided a draft of this report to ServeMinnesota and to the Corporation for comment on
February 5, 2008. ServeMinnesota generally did not address the recommendations but its
response to the findings in the draft report are included in Appendix A and summarized in
each finding.     The Corporation did not respond to the individual findings and
recommendations. Its response is in Appendix B.




                                           5
                Conrad Government Services Division



 Inspector General
 Corporation for National and Community Service


                              INDEPENDENT ACCOUNTANTS’ REPORT ON
                               APPLYING AGREED-UPON PROCEDURES

 We have performed the procedures described below, which were agreed to by the OIG solely
 to assist it in grant-cost and compliance testing of Corporation-funded Federal assistance
 provided to ServeMinnesota for the awards and periods listed below. This agreed-upon
 procedures engagement was performed in accordance with standards established by the
 American Institute of Certified Public Accountants and generally accepted government
 auditing standards. The sufficiency of these procedures is solely the responsibility of the
 OIG. Consequently, we make no representation regarding the sufficiency of the procedures
 described below, either for the purpose for which this report has been requested or any other
 purpose.

          Program                Award Number                Award Period                Testing Period
AmeriCorps – Competitive         03ACHMN001               09/01/03 – 08/31/06         04/01/05 – 08/31/06
AmeriCorps – Competitive         06ACHMN001               08/10/06 – 09/09/09         08/10/06 – 03/31/07
AmeriCorps – Formula             04AFHMN001               08/01/04 – 10/31/07         04/01/05 – 03/31/07
Administrative                   06CAHMN001               01/01/06 – 12/31/09         01/01/06 – 06/30/07
PDAT                             06PTHMN001               01/01/06 – 12/31/08         01/01/06 – 06/30/07
Disability                       06CDHMN001               01/01/06 – 12/31/08         01/01/06 – 06/30/07
Education Award                  05ESHMN001               08/01/05 – 07/31/08         08/01/05 – 06/30/07

 We were not engaged to, and did not perform an examination, the objective of which would
 be the expression of an opinion on management’s assertions. Accordingly, we do not express
 such an opinion. Had we performed other procedures, other matters might have come to our
 attention that would have been reported to you.

 The procedures that we performed included obtaining an understanding of ServeMinnesota
 and its subgrantee monitoring process; reconciling Federal costs claimed and match costs to
 the accounting systems of ServeMinnesota and of selected subgrantees; reviewing subgrantee
 member files to verify that the records supported member eligibility to serve and allowability
 of living allowances and education awards; testing compliance of ServeMinnesota and a
 sample of subgrantees on selected grant provisions and award terms and conditions; and
 testing claimed grant costs and match costs of ServeMinnesota and a sample of subgrantees
 to ensure: (i) Proper recording of the AmeriCorps grants, Administrative grant, PDAT grant,
 Disability grant, and Education Award grant; (ii) Costs were properly matched; and (iii)

         2301 Dupont Drive, Suite 200 y Irvine, California 92612 y 949-474-2020 ph y 949-263-5520 fx
   12761 Darby Brooke Court, Suite 201 y Woodbridge, Virginia 22192 y 703-491-9830 ph y 703-491-9833 fx

                                                     6
Costs were allowable and supported in accordance with applicable regulations, OMB
circulars, grant provisions, and award terms and conditions.

                                Results – Costs Claimed

The testing results of costs are summarized in the Consolidated Schedule of Award Costs and
the exhibits and schedules that follow. The schedules also identify instances of questioned
education awards. These awards were not funded by Corporation grants, and accordingly are
not included in claimed costs. As part of our agreed-upon procedures, however, we
determined the effect of member timesheet and eligibility exceptions on these awards.




                                            7
                                CONSOLIDATED SCHEDULE OF AWARD COSTS

                                                    ServeMinnesota

                                            April 1, 2005, to June 30, 2007

                                                                           Questioned                 Questioned
                                             Approved        Claimed         Federal     Questioned   Education
Award Number           Program                Budget          Costs           Costs     Match Costs    Awards      Reference
03ACHMN001     AmeriCorps – Competitive      $ 8,605,345    $ 4,929,500    $ 44,791     $ 102,015     $ 9,450
06ACHMN001     AmeriCorps – Competitive        4,370,024      2,218,904             -            -            -
04AFHMN001     AmeriCorps – Formula            3,058,182      2,745,284        6,704        2,633        1,000
                       Total AmeriCorps     $ 16,033,551   $ 9,893,688     $ 51,495     $ 104,648     $ 10,450     Exhibit A

06CAHMN001     Administrative                   494,949          376,443      1,106             -            -     Exhibit B

06PTHMN001     PDAT                             311,500          225,597      2,646             -            -     Exhibit C

06CDHMN001     Disability                       326,410          227,768      1,600             -            -     Exhibit D

05ESHMN001     Education Award                    60,000          54,154          -             -            -

                                   Totals   $ 17,226,410   $ 10,777,650    $ 56,847     $ 104,648     $ 10,450



                                  Notes to Consolidated Schedule of Award Costs

        Basis of Accounting

        The accompanying schedules have been prepared to comply with provisions of the grant
        agreements between the Corporation and ServeMinnesota. The information presented in the
        schedules has been prepared from reports submitted by ServeMinnesota to the Corporation
        and accounting records of ServeMinnesota and its subgrantees. The basis of accounting used
        in the preparation of these reports differs from accounting principles generally accepted in
        the United States of America as discussed below.

        Equipment

        No equipment was purchased and claimed under Federal or match share of costs for the
        period within our audit scope.

        Inventory

        Minor materials and supplies are charged to expense during the period of purchase.




                                                             8
                                                                                                   EXHIBIT A
                           Schedule of Award and Claimed Costs – AmeriCorps Grants
                               03ACHMN001, 06ACHMN001 and 04AFHMN001
                                      April 1, 2005 through March 31, 2007

                                                             Questioned    Questioned   Questioned
                                               Claimed        Federal        Match      Education
Subgrantees                                     Costs          Costs         Costs       Awards         Reference

  03ACHMN001 and 06ACHMN001 -
               Competitive
Admission Possible *                           $   625,274    $      -      $ 28,806      $        -   Schedule A-6
Duluth Area Family YMCA *                          375,036           -             -               -
Faribault Public Schools                         1,506,677           -             -               -
Minneapolis Public Schools                         728,955           -             -               -
Minnesota Literacy Council *                       379,456       1,777         7,299               -   Schedule A-2
CommonBond Communities *                           258,119          25             -               -   Schedule A-3
Neighborhood House                                 425,446           -             -               -
Red Lake Band of Chippewa Indians*                 536,006       3,246             -           9,450   Schedule A-4
Rise, Inc                                          670,333           -             -               -
St. Paul Neighborhood Network *                    603,609      39,743        65,910               -   Schedule A-5
St Cloud State University                          356,172           -             -               -
Twin Cities Habitat for Humanity                   520,051           -             -               -
Southern Minnesota Initiative Foundation           163,270           -             -               -
                                 Sub-total     $ 7,148,404    $ 44,791     $ 102,015     $     9,450

        04AFHMN001 – Formula
Minneapolis Public Schools                      $ 150,362     $        -    $       -    $         -
Minnesota Literacy Council *                       710,764         6,293        1,339              -   Schedule A-2
St. Cloud State University                          99,607             -            -              -
Twin Cities Habitat for Humanity                   227,853             -            -              -
Duluth Area Family YMCA *                          445,439           411        1,294          1,000   Schedule A-1
Southern Minnesota Initiative Foundation           360,570             -            -              -
Worthington ISD 518                                285,236             -            -              -
St. Croix River Education District                 232,364             -            -              -
City of Saint Paul                                  68,794             -            -              -
Neighborhood House                                 164,295             -            -              -
                                   Sub-total   $ 2,745,284    $    6,704   $    2,633    $     1,000

                          Subgrantee Total     $ 9,893,688    $   51,495   $ 104,648     $    10,450

         * Subgrantee selected for application of agreed-upon procedures.




                                                              9
                                                                                 Schedule A-1
                                                                                   Page 1 of 1

                         Schedule of Award and Claimed Costs
                         Duluth Area Family YMCA (YMCA)

                          April 1, 2005 through March 31, 2007

                                                                                    Reference

Approved Budget (Federal Funds)
   04AFHMN0010015                                          $ 594,537              Note 1
   06ACHMN0010003                                            629,999              Note 1
     Total Approved Budget (Federal Funds):                            $1,244,536 Note 1

Claimed Federal Costs
   04AFHMN0010015                                          $ 445,439             Note 2
   06ACHMN0010003                                            375,036             Note 2
     Total Claimed Federal Costs:                                      $ 820,475 Note 2

Questioned Federal Costs:
   04AFHMN0010015 - Unsupported Costs                                  $         411 Note 3

Questioned Education Awards:
   04AFHMN0010015 - Insufficient Member Hours                          $     1,000 Note 4

Questioned Match Costs:
   04AFHMN0010015 - Credits Not Applied                                $     1,294 Note 5

Notes

1. The amount shown above as Approved Budget represents the total funding to the YMCA
   according to subgrantee agreements.

2. Claimed Federal costs represent YMCA’s reported expenditures for the period April 1,
   2005, through March 31, 2007.

3. Federal share costs claimed of $411 were unsupported due to clerical errors (see
   Finding 1).

4. One applicant recorded 11 AmeriCorps service hours prior to signing a member contract.
   As a result, the minimum service hour requirement was not satisfied, and we questioned
   the related $1,000 education award (see Finding 4).

5. Credits of $1,294 for match costs claimed were not applied (see Finding 1).



                                            10
                                                                        Schedule A-2
                                                                          Page 1 of 2

                        Schedule of Award and Claimed Costs
                         Minnesota Literacy Council (MLC)

                        April 1, 2005 through March 31, 2007

                                                                           Reference

Approved Budget (Federal Funds)
   03ACHMN0010009                                    $ 624,498                Note 1
   04AFHMN0010005                                      328,601                Note 1
   04AFHMN0010012                                      383,031                Note 1
   04AFHMN0010016                                      920,399                Note 1
     Total Approved Budget (Federal Funds):                        $2,256,529 Note 1

Claimed Federal Costs
   03ACHMN0010009                                    $ 379,456                Note 2
   04AFHMN0010005                                       20,577                Note 2
   04AFHMN0010012                                      270,019                Note 2
   04AFHMN0010016                                      420,168                Note 2
     Total Claimed Federal Costs:                                  $1,090,220 Note 2

Questioned Federal Costs:
   03ACHMN0010009 - Costs Claimed to Wrong Grant     $    1,600                Note 3
   04AFHMN0010012 - Costs Claimed to Wrong Grant         (1,600)               Note 3
   04AFHMN0010012 - Duplicate Living Allowances             417                Note 4
   03ACHMN0010009 - Improper Allocation Method              177                Note 5
   04AFHMN0010016 - Improper Allocation Method            7,476                Note 5
      Total Questioned Federal Costs:                              $   8,070

Questioned Match Costs:
   03ACHMN0010009 - Costs Claimed to Wrong Grant $          282                Note 3
   04AFHMN0010012 - Costs Claimed to Wrong Grant           (282)               Note 3
   04AFHMN0010012 - Duplicate Living Allowances              73                Note 4
   03ACHMN0010009 - Unsupported Living Allowances         6,100                Note 6
   04AFHMN0010016 - Insufficient support for In-Kind      1,548                Note 7
   03ACHMN0010009 - Insufficient support for In-Kind        917                Note 7
      Total Questioned Match Costs:                                $   8,638




                                         11
                                                                              Schedule A-2
                                                                                Page 2 of 2

Notes

1. The amount shown above as Approved Budget represents the total funding to MLC
   according to subgrantee agreements.

2. Claimed costs represent MLC’s reported Federal expenditures for the period April 1,
   2005, through March 31, 2007.

3. Living Allowance and related FICA costs incurred by various members totaled $1,600
   Federal share and $282 match under the formula grant but were improperly claimed
   under the competitive grant. As a result, the living allowance and related FICA costs for
   the competitive grant were overstated and the formula grant was correspondingly
   understated (see Finding 1).

4. A duplicate charge was made in error because a replacement check was issued to a
   member who had lost the original living allowance check. As a result, we questioned
   $417 Federal share and $73 match for living allowances and related benefits (see Finding
   1).

5. The non-salary/benefit-related common costs were allocated based on budgeted
   percentages. This method did not equitably distribute benefit costs. As a result, the
   subgrantee overstated the claimed costs on the competitive grant by $177 and on the
   formula grant by $7,476 (see Finding 1).

6. The subgrantee claimed $6,100 in excess of members’ living allowances match due to a
   posting error (see Finding 1).

7. In-kind supplies and space costs were claimed as match, but the supporting
   documentation did not include the basis of how the values for the match were
   determined. We questioned $917 under the competitive grant and $1,548 under the
   formula grant (see Finding 1).




                                            12
                                                                               Schedule A-3
                                                                                 Page 1 of 1

                          Schedule of Award and Claimed Costs
                           CommonBond Communities (CBC)

                                  03ACHMN0010010
                        September 1, 2006 through March 31, 2007

                                                                                    Reference

Approved Budget (Federal Funds)                                         $ 503,623     Note 1

Claimed Federal Costs                                                   $ 258,119     Note 2

Questioned Federal Costs:
      Unallowable costs claimed                                         $      25     Note 3

Notes

1. The amount shown above as Approved Budget represents the total funding to CBC
   according to subgrantee agreements.

2. Claimed Federal costs represent CBC’s reported expenditures for the period September 1,
   2006, through March 31, 2007.

3. The subgrantee included $25 in fines for parking violations as part of its claimed Federal
   share of expenditures (see Finding 2).




                                             13
                                                                             Schedule A-4
                                                                               Page 1 of 1

                        Schedule of Award and Claimed Costs
                    Red Lake Band of Chippewa Indians (Red Lake)

                                   03ACHMN0010008
                         April 1, 2005 through March 31, 2007


                                                                                 Reference

Approved Budget (Federal Funds)                                       $ 944,986    Note 1

Claimed Federal Costs                                                 $ 536,006    Note 2

Questioned Federal Costs:
   Not Approved in Budget:                                            $    3,246 Note 3

Questioned Education Awards:                                          $    9,450   Note 4

Notes

1. The amount shown above as Approved Budget represents the total funding to Red Lake
   according to subgrantee agreements.

2. Claimed costs represent Red Lake’s reported Federal expenditures for the period April 1,
   2005, through March 31, 2007.

3. Celebration costs of $3,246 were claimed to promote AmeriCorps members, but these
   costs were not included in the approved budget and are, therefore, unallowable (see
   Finding 5).

4. Three members’ timesheets did not have sufficient hours to meet the minimum
   requirement for an education award. As a result, we questioned education awards of
   $9,450 (see Finding 4).




                                            14
                                                                             Schedule A-5
                                                                               Page 1 of 1
                         Schedule of Award and Claimed Costs
                        St. Paul Neighborhood Network (SPNN)

                                   03ACHMN0010007
                         April 1, 2005 through March 31, 2007
                                                                                 Reference

Approved Budget (Federal Funds)                                        $ 943,765    Note 1

Claimed Federal Costs                                                  $ 603,609    Note 2

Questioned Federal Costs:
   Not Approved in Budget                                 $   16,665                Note 3
   Unsupported Costs                                           8,365                Note 4
   Unsupported Living Allowance                               14,713                Note 5
      Totaled Questioned Federal Costs:                                $   39,743

Questioned Match Costs:
   Not Approved in Budget                                 $   22,515                Note 3
   Unsupported Costs                                          34,899                Note 4
   Unsupported Living Allowance                                2,596                Note 5
   Claimed to the Wrong Grant                                  5,900                Note 6
      Totaled Questioned Match Costs:                                  $   65,910

Notes

1. The amount shown above as Approved Budget represents the total funding to SPNN
   according to subgrantee agreements.

2. Claimed costs represent SPNN’s reported Federal expenditures for the period April 1,
   2005, through March 31, 2007.

3. The subgrantee claimed costs of $16,665 Federal share and $22,515 match for contractual
   and consultant services, which were not included in the approved budget (see Finding 5).

4. Our reconciliation of SPNN’s costs claimed and its accounting records found a difference
   of $8,365 Federal share and $34,899 match (see Finding 1).

5. Our reconciliation of living allowances claimed and accounting records found a
   difference of $14,713 Federal share and $2,596 match (see Finding 1).

6. SPNN claimed $5,900 of match under the competitive grant; however, these expenses
   were for services provided to the subgrantee’s CTC VISTA Project (see Finding 1).



                                            15
                                                                             Schedule A-6
                                                                               Page 1 of 1
                          Schedule of Award and Claimed Costs
                                Admission Possible (AP)

                          April 1, 2005 through March 31, 2007

                                                                                 Reference

Approved Budget (Federal Funds)
   03ACHMN0010005                                          $ 529,189               Note 1
   06ACHMN0010002                                            554,397               Note 1
     Total Approved Budget (Federal Funds):                             $1,083,586 Note 1

Claimed Federal Costs
   03ACHMN0010005                                          $ 327,694              Note 2
   06ACHMN0010002                                            297,580              Note 2
     Total Claimed Federal Costs:                                       $ 625,274 Note 2

Questioned Match Costs (03ACHMN0010005):
   Unsupported Costs                                       $ 14,064                  Note 3
   Unsupported Living Allowances                              6,167                  Note 4
   Credits Not Applied                                        3,116                  Note 5
   Unallowable Costs                                          5,459                  Note 6
      Totaled Questioned Match Costs:                                   $   28,806

Notes

1. The amount shown above as Approved Budget represents the total funding to AP
   according to subgrantee agreements.

2. Claimed costs represent AP’s reported Federal expenditures for the period April 1, 2005,
   through March 31, 2007.

3. Reconciliation between match costs claimed and the subgrantee’s accounting records
   found $14,064 of unsupported match costs (see Finding 1).

4. A comparison of AP’s accounting records and its payroll records found a $6,167
   difference between the living allowance claimed as match costs and the amount in the
   books and records (see Finding 1).

5. Our match testing found $3,116 of credits not applied (see Finding 1).

6. AP claimed $5,459 of entertainment and fundraising costs as match expense (see
   Finding 2).



                                             16
                                                                                     Exhibit B
                                                                                 Page 1 of 1

                          Schedule of Award and Claimed Costs
                                 Administrative Grant

                                     06CAHMN001
                         January 1, 2006 through June 30, 2007

                                                                                  Reference

Approved Budget (Federal Funds)                                         $ 494,949     Note 1

Claimed Federal Costs                                                   $ 376,443     Note 2

Questioned Costs:
   Lobbying Costs                                          $    1,049                 Note 3
   Recognition Awards                                              57                 Note 4
      Totaled Questioned Costs:                                         $    1,106



Notes

1. The amount shown above as Approved Budget represents the total funding to
   ServeMinnesota under the Administrative grants according to grantee agreements.

2. Claimed costs represent ServeMinnesota’s reported Federal expenditures for the period
   January 1, 2006, through June 30, 2007.

3. ServeMinnesota claimed $1,049 of lobbying costs as Federal share (see Finding 2).

4. ServeMinnesota allocated and claimed $57 for recognition awards, in the form of gift
   cards, for individuals who donated professional services (i.e., peer reviewers) as Federal
   share (see Finding 2).




                                             17
                                                                                   Exhibit C
                                                                                  Page 1 of 1

                          Schedule of Award and Claimed Costs
                                      PDAT Grant

                                     06PTHMN001
                         January 1, 2006 through June 30, 2007

                                                                                  Reference

Approved Budget (Federal Funds)                                         $ 311,500    Note 1

Claimed Federal Costs                                                   $ 225,597    Note 2

Questioned Costs:
   Lobbying Costs                                          $    2,088                Note 3
   Recognition Awards                                             558                Note 4
      Totaled Questioned Costs:                                         $    2,646


Notes

1. The amount shown above as Approved Budget represents the total funding to
   ServeMinnesota under the PDAT grants according to grantee agreements.

2. Claimed costs represent ServeMinnesota’s reported Federal expenditures for the period
   January 1, 2006, through June 30, 2007.

3. ServeMinnesota claimed $2,088 of lobbying costs as Federal share (see Finding 2).

4. ServeMinnesota allocated and claimed $558 for recognition awards, in the form of gift
   cards, for individuals who donated professional services (i.e., peer reviewers) as Federal
   share (see Finding 2).




                                             18
                                                                                     Exhibit D
                                                                                 Page 1 of 1

                          Schedule of Award and Claimed Costs
                                    Disability Grant

                                     06CDHMN001
                         January 1, 2006 through June 30, 2007

                                                                                  Reference

Approved Budget (Federal Funds)                                         $ 326,410     Note 1

Claimed Federal Costs                                                   $ 227,768     Note 2

Questioned Costs:
   Lobbying Costs                                          $    1,161                 Note 3
   Recognition Awards                                             439                 Note 4
      Totaled Questioned Costs:                                         $    1,600



Notes

1. The amount shown above as Approved Budget represents the total funding to
   ServeMinnesota under the Disability grants according to grantee agreements.

2. Claimed costs represent ServeMinnesota’s reported Federal expenditures for the period
   January 1, 2006, through June 30, 2007.

3. ServeMinnesota claimed $1,161 of lobbying costs as Federal share (see Finding 2).

4. ServeMinnesota allocated and claimed $439 for recognition awards, in the form of gift
   cards, for individuals who donated professional services (i.e., peer reviewers) as Federal
   share (see Finding 2).




                                             19
                         Results - Compliance and Internal Control

The results of our agreed-upon procedures also revealed instances of non-compliance with
grant provisions, regulations, or OMB requirements, as shown below:

     •   Lack of controls or controls not implemented over reporting and recording of Federal
         and match costs;

     •   Costs questioned for allowability;

     •   Late and missing member forms, progress reports, expense reports, and FSRs;

     •   Lack of adequate procedures to ensure that members signed their contracts before
         starting service and that the subgrantees entered enrollment information into WBRS
         in a timely manner; and

     •   Costs claimed were not in the approved budget.


Finding 1. Lack of Controls or Controls Not Implemented Over Reporting and
           Recording of Federal and Match Costs

Our agreed-upon procedures found inadequate controls over reporting and recording of
ServeMinnesota’s and subgrantees’ Federal and match costs, or established controls that
were not fully implemented.

Federal and match costs reported lack sufficient supporting documentation.

AP

Reconciliation between match costs claimed and AP’s accounting records found $14,064 of
unsupported match costs. In addition, a comparison of AP’s accounting records and its
payroll records found a $6,167 difference between the living allowance claimed as match
costs and the amount in the books and records. The condition is due to a combination of
factors:

     •   Inadequate reconciliation of claimed costs to the books;

     •   Lack of a policy and operating procedures and clearly defined responsibilities;

     •   Clerical errors due to inexperienced staff with limited accounting skills, lack of
         adequate supervision, and an inadequate supervisory review process;

     •   Limitations of the subgrantee’s accounting systems to separate certain expense
         accounts; and

     •   Costs claimed based on approximations that were not later adjusted to actual costs.

                                               20
YMCA

Our testing of YMCA found $411 of Federal costs claimed was unsupported. The
subgrantee claimed $25 twice for the costs of the same member’s training and also overstated
personnel expenses by $186 and living allowances by $200 due to clerical errors.

The subgrantee made errors in aggregating claimed costs and did not have a documented
process for reconciling reported costs to actual expenditures and reviewing claims before
they are submitted. Instead, the subgrantee relies on an informal review to ensure that
reported costs are accurate.

MLC

Our testing of MLC found Federal and match costs claimed were unsupported.              The
subgrantee:

   •   Claimed $6,100 in excess of members' living allowance match due to a posting error.
       A temporary accountant erroneously posted the amount to the living allowance
       account of the AmeriCorps grant and the mistake was not detected as part of the
       review process.

   •   Charged a member’s FICA costs of $567 as Federal share to Program Year (PY)
       2005-2006, which were applicable to Program Year 2006-2007. These costs include
       $250 for the AmeriCorps Formula Grant No. 04AFHMN001 and $317 for the
       AmeriCorps Competitive Grant No. 03ACHMN001. During PY 2005-2006, the
       subgrantee’s payroll system was not set up to identify living allowance payments by
       grant. The program representatives manually tracked living allowances on a
       spreadsheet but made errors, which resulted in charging $567 to the wrong fiscal
       period.

   •   Claimed in-kind supplies and space costs as match but the supporting documentation
       did not include the basis of how the values for the match were determined. We
       questioned $917 under the competitive grant and $1,548 under the formula grant.
       The subgrantee did not have established policies to ensure reported in-kind donations
       were valued appropriately.

SPNN

Our testing of SPNN found Federal and match costs claimed were unsupported, as follows:

   •   There was a $8,365 Federal share and a $34,899 match difference between the
       amounts claimed and the accounting records as detailed in the following schedule:




                                            21
                      PY 2004-2005      PY 2005-2006       PY 2006-2007        Total
    Federal Share          $ 2,200           $ 4,199            $ 1,966       $ 8,365
    Match Share               9,100            13,056             12,743        34,899
        Total              $ 11,300          $ 17,255           $ 14,709      $ 43,264

   SPNN did not have policies or operating procedures to adequately reconcile costs to its
   general ledger.

   •   Members’ living allowances and related FICA costs claimed were unsupported by
       SPNN’s payroll records, as follows:

                      PY 2005-2006      PY 2006-2007       Total
    Federal Share           $ 5,117         $ 9,596       $ 14,713
    Match Share                 903             1,693        2,596
        Total               $ 6,020         $ 11,289      $ 17,309

   SPNN did not adequately reconcile its subsidiary ledgers (i.e., payroll registers) to the
   corresponding general ledger balances.

Criteria

AmeriCorps General Provision (2004), C.22.b., Financial Management Provisions, Source
Documentation, states:

       The grantee must maintain adequate supporting documents for its
       expenditures (Federal and non-Federal) and in-kind contributions made under
       this grant. Costs must be shown in books or records [e.g., a disbursement
       ledger or journal], and must be supported by a source document, such as a
       receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

AmeriCorps General Provision (2005), V.B.1., Financial Management Standards, states:

       The grantee must maintain financial management systems that include
       standard accounting practices, sufficient internal controls, a clear audit trail
       and written cost allocation procedures, as necessary. Financial management
       systems must be capable of distinguishing expenditures attributable to this
       grant from expenditures not attributable to this grant. The systems must be
       able to identify costs by programmatic year and by budget category and to
       differentiate between direct and indirect costs or administrative costs. For
       further details about the grantee's financial management responsibilities, refer
       to OMB Circular A-102 and its implementing regulations (45 C.F.R. § 2543)
       or A-110 and its implementing regulations (45 C.F.R. § 2541), as applicable.

The uniform common rule for grants administration by non-profits, codified in the
Corporation’s regulations at 45 C.F.R. § 2543, at subsection 21., Standards for financial
management systems, states:

                                             22
       b. Recipients' financial management systems shall provide for the following:

          ....

       (6) Written procedures for determining the reasonableness, allocability and
       allowability of costs in accordance with the provisions of the applicable
       Federal cost principles and the terms and conditions of the award.

Costs Claimed to the Wrong Grant

MLC

Our testing of MLC found costs claimed to the wrong grant and inequitable allocations, as
follows:

   •   Living allowances for the formula grant were incorrectly claimed under the
       competitive grant due to a calculation error in the tracking spreadsheet. As a result,
       the competitive grant was overstated and the formula grant was understated by the
       following amount:

    Type of Costs         Amount         FICA        Total Cost
 Federal Share             $ 1,486         $ 114       $ 1,600
 Match Share                   262            20            282
         Total             $ 1,748         $ 134       $ 1,882

   •   The non-salary/benefit related common costs were allocated based on budgeted
       percentages. This method did not equitably distribute benefit costs. As a result,
       MLC overstated the claimed reimbursements on the competitive grant by $177 and on
       the formula grant by $7,476.

SPNN

SPNN claimed $5,900 of match expenses under the competitive grant; however, these
expenses were for services provided to the subgrantee’s CTC VISTA Project. SPNN did not
have an adequate review process to ensure that costs were charged to the appropriate grant.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A.
General Provisions, Section A.4. Basic Considerations, Allocable Costs, states:

       a. A cost is allocable to a particular cost objective, such as a grant, contract,
          project, service, or other activity, in accordance with the relative benefits
          received. A cost is allocable to a Federal award if it is treated consistently
          with other costs incurred for the same purpose in like circumstances and if
          it:



                                              23
         (1) Is incurred specifically for the award.
         (2) Benefits both the award and other work and can be distributed in
             reasonable proportion to the benefits received, or
         (3) Is necessary to the overall operation of the organization, although a direct
             relationship to any particular cost objective cannot be shown.

         b. Any cost allocable to a particular award or other cost objective under these
            principles may not be shifted to other Federal awards to overcome funding
            deficiencies, or to avoid restrictions imposed by law or by the terms of the
            award.

Credits not applied

AP

During our match testing, we found that the following credits were not applied:

     •   A $745 credit from Southwest State University to transport students to the campus;

     •   A $100 voided check was not credited to match costs; and

     •   The costs of scholarships unrelated to the AmeriCorps Program were recorded as
         match. AP’s original intention was to apply credits to these expenses because they
         were non-AmeriCorps related. However, no credit was applied. As a result, we
         questioned $2,271 of match costs.

AP did not have established procedures for reviewing cleared checks and reducing claimed
amounts when a check was voided. In addition, AP had not established procedures for
tracking credits and ensuring that any credits received were applied against corresponding
claimed costs.

YMCA

During our testing of match costs, we found that credits of $1,294 were not applied, as
follows:

     •   $536 of member reimbursements for health insurance premiums; and

     •   A $758 credit received from a vendor.

YMCA did not have a process to ensure that credits are applied as off-sets against recorded
and claimed costs. Instead, YMCA relied on an informal review to ensure that credits are
applied.




                                               24
MLC

The subgrantee issued a replacement check to a member who had lost her original living
allowance check; however, the accountant voided the first check, but inadvertently claimed
both the voided amount and the new check. As a result, costs were questioned as follows:

                          Living
                         Allowance      FICA      Total
 Federal Share                $ 387      $ 30     $ 417
 Match Share                     68         5         73
 Total                        $ 455      $ 35     $ 490

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A. General
Provisions, Section A.5., Basic Considerations, Applicable Credits, states:

    The term applicable credit refers to those receipts, or reduction of expenditures
    which operate to offset or reduce expense items that are allocable to awards as
    direct or indirect costs. Typical examples of such transactions are: purchase
    discounts, rebates or allowances, recoveries or indemnities on losses, insurance
    refunds, and adjustments of overpayments or erroneous charges. To the extent
    that such credits accruing or received by the organization relate to allowable cost,
    they shall be credited to the Federal Government either as a cost reduction or cash
    refunds, as appropriate.

Recommendations

We recommend that the Corporation:

   1.a. Resolve the questioned costs and recoup any disallowed and applicable
        administrative costs; and

   1.b. Ensure that ServeMinnesota trains and monitors its subgrantees in establishing
        controls that specifically address the errors and weaknesses identified above. This
        effort includes developing a record-keeping system such that grant documentation is
        retained and readily accessible; develop policies and procedures to ensure costs
        claimed are properly supported by its accounting records and source documentation;
        design controls to verify the accuracy of costs claimed; design proper allocation
        methodology for costs; and implement procedures requiring appropriate personnel to
        review FSRs before they are submitted. The reviews should include tracing reported
        amounts on the FSRs to supporting documentation and verifying the accuracy of the
        data through appropriately designed analysis.




                                             25
ServeMinnesota’s Response

ServeMinnesota stated that its subgrantees agree with this finding and have taken corrective
actions. It also stated that some subgrantees had more match costs than required or had
match costs not previously reported that could be substituted for match costs the auditors
questioned. ServeMinnesota is reviewing these match costs.


Auditor’s Comment

ServeMinnesota indicated that the subgrantees have taken corrective measures. Additional
or replacement match provided by the subgrantees should be reviewed to ensure that it is
reasonable, allowable, and allocable. The Corporation should consider the actions taken but
disallow and recoup the questioned costs, plus applicable administrative costs, because
ServeMinnesota stated that the subgrantees agree with the finding.


Finding 2. Costs Questioned for Allowability

ServeMinnesota

ServeMinnesota claimed as Federal share, the costs of gift cards provided to volunteers and
lobbying costs, as follows:

   •   ServeMinnesota allocated costs, for gift cards with values that ranging from $20 to
       $25, for individuals who donated professional services (i.e., peer reviewers). We
       questioned these costs, as follows:

                     Grant                             Grant #        Federal Share
 Administrative                                     06CAHMN001             $     57
 Disability                                         06CDHMN001                  439
 Progressive Development and Training (PDAT)        06PTHMN001                  558
                             Total                                         $ 1054

       ServeMinnesota misinterpreted such costs to be “volunteer recognition” costs
       consistent with the 45 C.F.R. § 2520.30, What capacity-building activities may
       AmeriCorps members perform? This section provides authorization for AmeriCorps
       members to perform capacity-building activities, such as promoting the retention of
       volunteers by, for example, “planning a recognition event” for volunteers. It does not
       authorize monetary awards or gifts for volunteers.

       We found no legal authorization to use Federal funds to pay for volunteer services
       furnished to an organization or to pay for associated recognition costs such as gift
       cards. Accordingly, such costs are not allowable as Federal share or match.




                                             26
     •    ServeMinnesota allocated lobbying costs of $4,298 as Federal share to the
          Administrative grant, Disability grant, and PDAT grant. These costs were for a
          consultant’s fees and for catering services for legislative liaison activities. These
          activities included gathering information regarding legislation and analyzing the
          effect of legislation as a precursor to potential lobbying activities. ServeMinnesota
          believed that information gathering of this nature (e.g., potential legislation, candidate
          positions, etc.) was more educational in nature and was allowable if no direct
          lobbying activity was involved. The questioned costs by grant are:


         Grant                 Grant #                Questioned Cost
         Administrative        06CAHMN001                      $ 1,049
         Disability            06CDHMN001                      $ 1,161
         PDAT                  06PTHMN001                      $ 2,088
                          Total                                $ 4,298

AP

AP claimed $5,459 of entertainment and fundraising costs as match expense, as follows:

     •    Invoices for mailing invitations and providing transportation to a corporate sponsored
          trip to a Minnesota Twins baseball game totaling $4,198 were included as match
          costs; and

     •    Invoices for postage to mail fundraising letters totaling $1,261 were included as
          match costs.

The subgrantee has not developed and implemented review procedures to ensure that
unallowable types of costs are identified and excluded from Federal share and/or claimed
match costs.

CBC

CBC claimed parking fines of $25. CBC personnel did not identify this transaction as
unallowable as part of its standard cost review process.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B., Selected
Items of Cost, Section 12.b.1. Donations and Contributions, Donated Services Received,
states:

          Donated or volunteer services may be furnished to an organization by
          professional and technical personnel, consultants, and other skilled and
          unskilled labor. The value of these services is not reimbursable either as a
          direct or indirect cost. However, the value of donated services may be used to

                                                 27
       meet cost sharing or matching requirements in accordance with the Common
       Rule.

OMB Circular A-122, Attachment B, Cost Principles for Non-Profit Organizations, Selected
Items of Cost, Section 25(a)(5) Lobbying, states:

       Legislative liaison activities, including attendance at legislative sessions or
       committee hearings, gathering information regarding legislation, and
       analyzing the effect of legislation, when such activities are carried on in
       support of or in knowing preparation for an effort to engage in unallowable
       lobbying.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B., Selected
Items of Cost, Section 14. Entertainment Costs, states that “[c]osts of entertainment,
including amusement, diversion, and social activities and any costs directly associated with
such costs (such as tickets to shows or sports events, meals, lodging, rentals, transportation,
and gratuities) are unallowable.”

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B., Selected
Items of Cost, Section 17. Fund Raising and Investment Management Costs, states that
“[c]osts of organized fund raising, including financial campaigns, endowment drives,
solicitation of gifts and bequests, and similar expenses incurred solely to raise capital or
obtain contributions are unallowable.”

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B., Selected
Items of Cost, Section 16. Fines and Penalties, states that “[c]osts of fines and penalties
resulting from violations of, or failure of the organization to comply with Federal, State, and
local laws and regulations are unallowable except when incurred as a result of compliance
with specific provisions of an award or instructions in writing from the awarding agency.”

Recommendations

We recommend that the Corporation:

   2.a. Disallow and recoup the questioned costs and applicable administrative costs;

   2.b. Train ServeMinnesota and its subgrantees regarding applicable cost principles and
        grant regulations; and

   2.c. Instruct ServeMinnesota to develop and implement procedures and controls to
        ensure that claimed costs are allowable and allocable in accordance with applicable
        costs principles, including thorough reviews of costs claimed on FSRs to supporting
        documentation to determine allowability. Once implemented, review costs claimed
        to ensure that the procedures are effective.




                                              28
ServeMinnesota’s Response

ServeMinnesota stated that it believed it is important to provide recognition to volunteers
willing to give significant time to ensure the success of AmeriCorps programming in
Minnesota. Consistent with this belief, ServeMinnesota provided $20 - $25 dollar gift cards
to individuals who served about 16 hours as peer reviewers.

In addition, ServeMinnesota continues to believe the costs questioned as lobbying activities
were educational and not lobbying. However, ServeMinnesota does agree that the $200.00
for catering services should not have been charged to Federal funds and is in agreement that
this amount should be returned to CNCS.

ServeMinnesota believes the issue of allowability of expenses was not due to lack of training
or understanding of cost principles but rather differences in interpretation. ServeMinnesota
indicated that it does have procedures and controls and the audit has provided clarification on
items where there is room for varying interpretations of cost principles.

ServeMinnesota indicated that AP has taken steps to increase its staff capacity in both grant
management and grant accounting. Further, the subgrantee has made financial system
enhancements that make class accounting easier to understand and apply. AP continues to
place emphasis on ensuring that staff involved in grant management and accounting have a
comprehensive understanding of the governing rules and its internal systems. It has
developed systems whereby the assignment of an expense is reviewed by at least two staff
members with appropriate skill and understanding to ensure compliance with the governing
rules and regulations. It also indicated that AP has more match than required and, after
removing the questioned match costs, it more than meets minimum match requirements.

For CBC, ServeMinnesota indicated that the $25 fine was removed in program year 2006-
2007 and any similar expenses will not be claimed in the future.

Auditor’s Comment

ServeMinnesota agreed that it did award gift cards to peer reviewers, but it did not address
the lack of legal authorization to use Federal funds to pay for volunteer services furnished to
an organization or to pay for associated recognition costs such as gift cards. It did not
disclose the action it planned to take.

The Corporation should consider the actions taken by ServeMinnesota for its subgrantees and
should follow up to ensure that ServeMinnesota’s planned actions are implemented and
effective. ServeMinnesota did not propose any specific planned actions to prevent CBC from
claiming unallowable expenses in the future.

In addition, ServeMinnesota allocated costs for consultant’s fees which included such
activities as gathering information regarding legislation and analyzing the effect of
legislation as a precursor to potential lobbying activities. These activities are lobbying costs
as specified in OMB Circular A-122, which we quote in the finding. ServeMinnesota

                                              29
believes the allowability of expenses was not due to lack of training or understanding of cost
principles, but rather differences in interpretation. However, it provides no refuting
information that would cause us to believe the effort was not lobbying. The Corporation
should take the recommended actions.


Finding 3.    Late and Missing Member Forms, Progress Reports, Expense Reports, and
              FSRs

Late Submission. Our sample found that the subgrantees did not submit required reports
and forms by the dates due, as shown in the table below.

Subgrantees                               Description of Non-Compliance
AP                                        •   1 of 6 required progress reports was submitted
                                              late.
                                          •   1 of 3 required Final Closeout Forms was
                                              submitted late.

CBC                                       •   1 of 2 required FSRs was submitted late.
                                          •   1 of 2 required ServeMinnesota Expense Report
                                              Forms (SERF) was submitted late.

YMCA                                      •   4 of 37 enrollment forms were submitted late.
                                          •   5 of 37 exit forms sampled were submitted late.

MLC                                       •   4 of 21 enrollment forms under the Competitive
                                              grant were submitted late.
                                          •   6 of 26 enrollment forms and 1 of 26 exit forms
                                              under the Formula grant were submitted late.
                                          •   5 of 8 FSRs and 1 of 9 progress reports under the
                                              Competitive grant were submitted late.
                                          •   5 of 8 FSRs and 1 of 9 progress reports under the
                                              Formula grant were submitted late.

Red Lake                                  •   1 of 7 required progress reports was submitted
                                              late.
                                          •   2 of 8 required FSRs were submitted late.

SPNN                                      •   2 of 8 required FSRs were submitted late.
                                          •   1 of 8 required SERFs was submitted late.
                                          •   1 of 3 required Final Closeout Forms was
                                              submitted late.
                                          •   5 of 21 enrollment forms and 4 of 21 exit forms
                                              were submitted late.




                                              30
AP representatives indicated that the late progress report may have been due to a technology
issue which prevented them from meeting the due date. AP also indicated that a staff
member forgot to file the final closeout form.

CBC experienced delays in submitting its reports at the beginning of the program because it
had not assigned responsibilities for approving the reports.

YMCA’s existing administrative oversight controls did not operate effectively to ensure that
the forms were filed in a timely manner.

MLC’s enrollment forms were submitted late because of a delay in approval of slot
conversions. For late submission of reports, there may have been a verbal extension granted
by ServeMinnesota. However, this could not be verified because the involved parties are no
longer employed by ServeMinnesota or MLC.

Red Lake representatives were unable to identify any specific reason for filing reports late
but stated that the responsible individual was on medical leave.

SPNN lacked oversight controls and monitoring procedures to ensure that FSRs and SERFs
were submitted on time. In addition, SPNN experienced a delay in receiving instructions
from ServeMinnesota on how to report expenditures, and reports were not filed until that
issue was clarified. Finally, SPNN submitted a final closeout form late because of a change
of program officers.

The lack of compliance by subgrantees demonstrate an internal control weakness at
ServeMinnesota, which needs to improve its monitoring to detect and correct instances that
its subgrantees submit required reports late.

By submitting documentation late, ServeMinnesota may not receive information related to
subgrantee activity in a timely manner. Accordingly, this may reduce ServeMinnesota’s
ability to identify potential issues in a timely manner and may also prevent ServeMinnesota
from accurately reporting program and expenditure information to the Corporation in a
timely manner.

Criteria

The AmeriCorps Special Provisions (2004), Section B.16. Reporting Requirements, states in
part:

       The Corporation expects each Grantee to set its own Subgrantee reporting
       requirements. Grantees are responsible for monitoring Subgrantee activities
       and training needs, tracking progress toward objectives, and identifying
       challenges. Subgrantees must adhere to the reporting requirements outlined
       and communicated by its Grantee for the program year.




                                            31
The AmeriCorps Grant Agreement, the subgrant, for PY 2004-2005 between ServeMinnesota
and its subgrantees, § IV (4) states:

      In the performance of this project, the GRANTEE shall:

      Submit all required fiscal and program reports according to the following
      deadline:

      a. A Financial Status Report (FSR) must be completed and approved in the
         Web-Based Reporting System (WBRS) each quarter according to the
         following schedule:

          I. Quarter I (08/1/04-12/31/2004) due on January 15, 2005
          II. Quarter II (01/01/2005-03/31/2005) due on April 15, 2005
          III. Quarter III (04/01/2005-06/30/2005) due on July 15, 2005
          IV. Quarter IV (07/01/2005-08/31/05) due on October 15, 2005

      b. A ServeMinnesota Expense Report Form (SERF) must be prepared and
         submitted to ServeMinnesota according to the aforementioned schedule.

The AmeriCorps Grant Agreement, the subgrant, for PY 2005-2006 between ServeMinnesota
and its subgrantees, § IV (4) states:

      In the performance of this project, the GRANTEE shall:

      Submit all required fiscal and program reports according to the following
      deadline:

      a. A Financial Status Report (FSR) must be completed and approved in the
         Web-Based Reporting System (WBRS) each quarter according to the
         following schedule:

          I. Quarter I (September 1 – December 31) due on January 13, 2006
          II. Quarter II (January 1 – March 31) due on April 14, 2006
          III. Quarter III (April 1 – June 30) due on July 14, 2006
          IV. Quarter IV (July 1 – August 31) due on October 13, 2006

   b. A ServeMinnesota Expense Report Form (SERF) must be prepared and
      submitted to ServeMinnesota according to the aforementioned schedule.

   c. The GRANTEE must close out this grant according to appropriate Office
      Management and Budget (OMB) Circular After-the-Grant Policies and Serve
      Minnesota direction. Final Closeout Forms are due on October 14, 2005
      (2006).




                                           32
   d. A Quarter II Progress Report must be completed and approved in WBRS by
      April 14, 2006 for the period, 01/01/2006 – 03/31/2006.

   e. A Quarter I Progress Report must be completed and approved in WBRS by
      January 13, 2006 for the period, 9/1/05 – 12/31/05.

The AmeriCorps Grant Agreement, the subgrant, for PY 2006-2007 between ServeMinnesota
and its subgrantees, § IV (4) states:

      In the performance of this project, the GRANTEE shall:

      Submit all required fiscal and program reports according to the following
      deadline:

      c. A Financial Status Report (FSR) must be completed and approved in the
         Web-Based Reporting System (WBRS) each quarter according to the
         following schedule:

          I. Quarter I (September 1 – December 31) due on January 12, 2007
          II. Quarter II (January 1 – March 31) due on April 13, 2007
          III. Quarter III (April 1 – June 30) due on July 13, 2007
          IV. Quarter IV (July 1 – August 31) due on October 12, 2007

   d. A ServeMinnesota Expense Report Form (SERF) must be prepared and
      submitted to ServeMinnesota according to the aforementioned schedule.

The 2004 AmeriCorps Special Provisions, Section B.16.b. Reporting Requirements,
Member-Related Forms; and the 2005 and 2006 AmeriCorps Provisions, Section IV.N.2.
AmeriCorps Member-Related Forms states:

      The Grantee is required to submit the following documents to the National
      Service Trust at the Corporation on forms provided by the Corporation.
      Grantees and Sub-Grantees may use WBRS to submit these forms
      electronically. Programs using WBRS must also maintain hard copies of the
      forms:

             i. Enrollment Forms. Enrollment forms must be submitted no later
             than 30 days after a member is enrolled.

             ii. Change of Status Forms. Member Change of Status Forms must be
             submitted no later than 30 days after a member’s status is changed. By
             forwarding Member Change of Status Forms to the Corporation, State
             Commissions and Parent Organizations signal their approval of the
             change.




                                           33
              iii. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-
              of-Service Forms must be submitted no later than 30 days after a
              member exits the program or finishes his/her term of service.

Missing Member Documentation: We found the following instances of missing member
documentation:

   •   YMCA did not maintain sign-in sheets or other documentation for member
       orientation.

   •   At Red Lake, of the 21 member files we sampled, 4 mid-term evaluations and 1 end-
       of-term evaluation were missing.

YMCA did not have a policy and procedure which required the enrollment councils to
document member orientation. An established procedure to document orientation attendance
was not developed and implemented until PY 2006-2007. Without proof of attendance, we
could not determine whether individual AmeriCorps members received the required
orientation.

Red Lake did not have a method for tracking completion of the member evaluations. In
addition, the program manager who was responsible for performing the evaluations was not
aware of the requirement for completing both a mid-term and an end-of-term evaluation for
each member and performed only one of the two required evaluations for some members.
Without documented evaluations, the subgrantee may not be able to determine whether the
member has satisfactorily completed assignments; and whether the member has met other
performance criteria that were communicated at the beginning of the term of service.
Finally, the member might not be eligible to perform services for a second term without a
satisfactory end-of-term evaluation.

Criteria

The 2004 AmeriCorps Special Provisions, B.7.c. Training, Supervision and Support,
Training and; the 2005 and 2006 AmeriCorps Special Provisions, Section IV.D.3 Training,
Supervision and Support, state:

       The grantee must conduct an orientation for members and comply with any
       pre-service orientation or training required by the Corporation. This
       orientation should be designed to enhance member security and sensitivity to
       the community. Orientation should cover member rights and responsibilities,
       including the Program's code of conduct, prohibited activities (including those
       specified in the regulations), requirements under the Drug-Free Workplace
       Act (41 U.S.C. 701 et seq.), suspension and termination from service,
       grievance procedures, sexual harassment, other non-discrimination issues, and
       other topics as necessary.

AmeriCorps Special Provisions, Section IV.D.6. Training, Supervision and Support, states in
part:
                                             34
       Performance Reviews. The grantee must conduct and keep a record of at least
       a midterm and end-of-term written evaluation of each member's performance
       for Full and Half-Time members and an end-of-term written evaluation for
       less than Half-time members. The evaluation should focus on such factors as:

           a. Whether the member has completed the required number of hours;
           b. Whether the member has satisfactorily completed assignments; and
           c. Whether the member has met other performance criteria that were
              clearly communicated at the beginning of the term of service.

According to 45 C.F.R. § 2522.220(d), Participant performance review, “a
participant is not eligible for a second or additional term of service without a
satisfactory mid-term and final performance evaluation.”

Recommendations

We recommend that the Corporation:

   3.a. Verify that ServeMinnesota develops and implements more effective control
        procedures and closely monitors its subgrantees to ensure prompt and complete
        financial and programmatic reporting, as well as member evaluations, in accordance
        with the ServeMinnesota requirement;

   3.b. Instruct ServeMinnesota to follow up with Red Lake to ensure that its members
        received an evaluation.

   3.c. Instruct ServeMinnesota to provide a refresher course for its subgrantees on program
        compliance requirements, including report submissions, documenting member
        orientations, and the important role training and evaluations play in member
        development.

ServeMinnesota’s Response

ServeMinnesota indicated that all subgrantees understand the reporting requirements and will
take appropriate corrective measures to ensure that future reporting remains in compliance.
ServeMinnesota has implemented a new policy regarding timeliness of reporting and meeting
deadlines.

ServeMinnesota has always provided training for its subgrantees on program compliance and
member development at the start of each program year. ServeMinnesota has now
implemented an enhanced monitoring system which requires programs to standardize their
operations. This instrument consists of 14 systems, each tailored to a particular area of
program or grants management. ServeMinnesota staff individually review all 14 systems for
each subgrantee.



                                            35
ServeMinnesota received from Red Lake copies of two of the four missing member
evaluations. ServeMinnesota advised Red Lake that half-time members are required to have
two evaluations.

Auditor’s Comment

The Corporation should consider the actions taken or proposed by ServeMinnesota, as it
takes the recommended actions, and should also follow up to ensure those actions are
implemented and effective.


Finding 4.   Lack of Adequate Procedures to Ensure That Members Signed Their
             Contract before Starting Service and that the Subgrantees Entered
             Enrollment Information into WBRS in a Timely Manner

Insufficient Hours: Testing of member files at YMCA found 1 of 37 AmeriCorps members
in our sample recorded service hours while the individual was an applicant without a signed
contract. The member left the original orientation meeting early for personal reasons and did
not sign the contract prior to leaving. YMCA did not take appropriate follow-up actions with
the member to ensure that the contract was signed prior to recording service hours. The
applicant recorded 11 service hours before becoming an AmeriCorps member. As a result,
the member did not meet the minimum required hours to receive an education award, and we
questioned the $1,000 education award.

                                            Hours
                Program      Hours per    Served As                Ed Award
  Member          Year        WBRS        A Member      Difference Questioned
 Member A      2004-2005      306.50       295.50          (11)     $ 1,000

At Red Lake, 3 of 21 sampled AmeriCorps member timesheets did not support hours
reported in WBRS. The condition was due to calculation errors on the timesheets. Red Lake
did not have monitoring procedures in place to ensure hours recorded on timesheets and
entered in WBRS were accurate. As a result, two of the members sampled did not meet the
minimum requirement for an education award, and we questioned $9,450 of education
awards, as follows:

                Program      Hours per    Hours Per                   Ed Award
  Member          Year        WBRS        Timesheets     Variance    Questioned
 Member A      2004-2005      1,705.90       1,650.50     (55.40)         $ 4,725
 Member B      2005-2006      1,723.60       1,673.00     (50.60)           4,725
                                                                     Did not Earn
 Member C      2005-2006        291.50         272.25      (19.25)      an award
                                                            Total:        $ 9,450

Members Not in WBRS: Three members at MLC, two members at Red Lake, and two
members at SPNN were admitted to the AmeriCorps program but were not entered in

                                             36
WBRS. These members exited the program within 30 days of enrollment and the program
personnel responsible for updating WBRS and the member roster did not enter member
information into WBRS as required. Red Lake was unaware that member information
needed to be entered into WBRS when members exited the program early. The other two
subgrantees did not follow their policies for updating WBRS. Without updating WBRS, the
Corporation might not be able to rely on the reported program member information included
in the system. In addition, controls over enrollment can be compromised and the
subgrantee’s member retention rate may be overstated and slot refill limitations may be
affected.

Criteria

PY 2004-2005: the 2004 AmeriCorps Special Provisions, Section B.d.i. Terms of Service,
states:

       Member Enrollment Procedures. An individual is enrolled as an AmeriCorps
       member when all of the following have occurred:

       1.   He or she has a signed member contract;
       2.   The program has verified the individual’s eligibility to serve;
       3.   The individual has begun a term of service; and
       4.   The program has approved the member enrollment form in WBRS.

The 2004 AmeriCorps General Provisions, Section C.2.ii. Financial Management Provisions,
AmeriCorps Members, states:

       The Grantee must keep time and attendance records on all AmeriCorps
       members in order to document their eligibility for in-service and post-service
       benefits. Time and attendance records must be signed and dated both by the
       member and by an individual with oversight responsibility for the member.


The 2005 and 2006 AmeriCorps Special Provisions, Section IV.C.1 Member Enrollment -
Member Enrollment Procedures states:

       Member recruitment, selection and enrollment requirements are in the
       Corporation’s regulations at 45 C.F.R. Part 2522. In addition, the following
       apply:

       a. An individual is enrolled as an AmeriCorps member when all of the
          following have occurred:

               i. He or she has signed a member contract;
               ii. The program has verified the individual's eligibility to serve;
               iii. The individual has begun a term of service; and
               iv. The program has approved the member enrollment form in WBRS.

                                            37
       b. Prior to enrolling a member in AmeriCorps, programs make commitments
          to individuals to serve. A commitment is defined as signing a member
          contract with an individual or otherwise entering into a legally enforceable
          commitment as determined by state law.

       c. Within 30 calendar days of entering into a commitment with an individual,
          the grantee or sub-grantee will notify the Corporation of the commitment
          via WBRS by enrolling the individual as a member.

       d. Member Enrollment: Within 30 calendar days of the member's starting
          service, the program must complete and approve the enrollment form in
          WBRS.

       e. If a commitment does not result in a member actually being enrolled, the
          program must cancel the commitment in WBRS within 30 calendar days
          of the member’s expected start date. If a grantee or sub-grantee does not
          complete an enrollment within 30 days of the member’s expected start
          date, the grantee and sub-grantee will receive notification that the
          timeframe has expired. The program will then have 15 calendar days to
          complete the enrollment before the commitment is removed from WBRS.

Recommendations

We recommend that the Corporation:

   4.a. Disallow and recoup, if used, education awards and any accrued interest awards
        (interest forbearance) for members that did not complete their service;

   4.b. Ensure that ServeMinnesota provides training to the subgrantees so they (1) are
        familiar with program requirements and provisions for updating members status in
        WBRS or other applicable systems, including members who exit the program early;
        and (2) do not include member service hours without a signed AmeriCorps contract;
        and

   4.c. Instruct ServeMinnesota to strengthen controls and monitoring over member
        timesheet preparation.

ServeMinnesota’s Response

ServeMinnesota indicated that the two members at Red Lake have already served the
additional hours needed or are working out a schedule to serve the necessary hours to earn
the education awards. Its review showed a variance between hours in WBRS and timesheets
to be 7.9 hours for one member and 32.4 hours for the other. The member who plans to serve
the additional hours has accessed his award in the amount of $3,714. For YMCA, the
member is willing to make up the necessary hours to earn the award.

                                             38
ServeMinnesota has always provided training for its subgrantees so that they are familiar
with program requirements and provisions for updating each member’s status in WBRS. In
the near future, this will be done for the My AmeriCorps portal and ServeMinnesota’s online
reporting system, which are replacing many functions of WBRS.

ServeMinnesota has also implemented a new electronic timekeeping system which provides
a secure (password protected) reporting system for member timesheets. Unique features of
this system include: separate tracking of service hours, fundraising hours, and training hours
and an automatic calculation of hours which eliminates mathematical errors.

Auditor’s Comment

Although our review showed variances of over 50 hours per member, as indicated in the
finding, ServeMinnesota advised that its review showed variances between timesheets and
WBRS records of 7.9 hours and 32.4 hours for the Red Lake’s full-time members. However,
ServeMinnesota did not provide data to substantiate its calculations. The Corporation should
determine the facts.

Although ServeMinnesota indicated that Red Lake and YMCA members have recently
served or are willing to serve to make up the hours necessary to earn an education award,
none of these members are authorized to earn hours outside their terms of service and can not
now serve additional hours to earn an education award. The required service completion
dates for the three members were:

Red Lake Member A        September 26, 2005
Red Lake Member B        September 25, 2006
YMCA Member A            January 31, 2006

Red Lake’s full-time members were subject to Section 139(b)(1) of the National Service
Trust Act of 1993, 42 U.S.C. § 12593(b)(1), which provides that a term of service shall run
from “a period of not less than 9 months and not more than 1 year.” The YMCA member
served reduced hours of part-time service subject to 42 U.S.C. § 12593(b)(2), which states
the member must serve “not less than 900 hours during a period of –

       (A) not more than 2 years; or
       (B) not more than 3 years if the individual is enrolled in an institute of higher
           education while performing all or a portion of the service.”

It is beyond the period of time for these members to complete the required service hours.
Our findings and recommendations remain unchanged. The Corporation should also follow
up with ServeMinnesota to determine whether the enhanced monitoring system and
electronic timekeeping system are implemented and effective.




                                              39
Finding 5.   Costs Claimed Were Not in the Approved Budget

Red Lake

Red Lake claimed $3,246 Federal share costs for annual AmeriCorps celebrations and other
holiday events in the Member Travel and Training budget line item. Although these costs
were supported, there was no corresponding budget established for these costs. Red Lake
misreported these costs so that the established budget for each line item would not be
exceeded. This practice had the effect of circumventing the established budget. As a result,
we questioned $3,246 because these costs were not in the approved budget and therefore, not
allowable.

Criteria

The 2005, 2006, and 2007 Grant Agreements between ServeMinnesota and Red Lake,
Section V. Consideration, states, “Federal CNCS AmeriCorps funding shall be used to pay
budgeted expenditures for costs outlined in the approved budget.” In addition, Section X.a.
Allowability of Costs, state:

       For federal funds, allowability of costs incurred under this AGREEMENT
       shall be determined in accordance with the procedures and principles given in
       federal publications “Office of Management and Budget” (OMB). For all
       funds, no claim for materials purchased in excess of budget categories or
       program services not specifically provided for in this AGREEMENT by the
       Subgrantee will be allowed by ServeMinnesota unless approved in writing by
       ServeMinnesota and such approval shall be considered to be a modification of
       the AGREEMENT.

SPNN

Our review of subgrantee expense reports found that costs claimed under the Personnel
Expense Category included $16,665 Federal share and $22,515 match for contract and
consulting expenses. Although these costs were supported, SPNN misclassified these
services costs in the Personnel Expense Category. Instead of revising the budget, costs were
misreported so that the established budget for each line item was not exceeded. This practice
had the effect of circumventing the established budget. Although there was a line item in the
approved budget for consultant services, there were no funding budgeted. As a result, we
questioned $16,665 of Federal share and $22,515 of costs claimed.

Criteria

The 2005, 2006, and 2007 Grant Agreements between ServeMinnesota and SPNN, Section
V. Consideration, states, “Federal CNCS AmeriCorps funding shall be used to pay budgeted
expenditures for costs outlined in the approved budget.” In addition, Section X.a.
Allowability of Costs, states:



                                             40
       For federal funds, allowability of costs incurred under this AGREEMENT
       shall be determined in accordance with the procedures and principles given in
       federal publications “Office of Management and Budget” (OMB). For all
       funds, no claim for materials purchased in excess of budget categories or
       program services not specifically provided for in this AGREEMENT by the
       Subgrantee will be allowed by ServeMinnesota unless approved in writing by
       ServeMinnesota and such approval shall be considered to be a modification of
       the AGREEMENT.

YMCA

YMCA misclassified and inaccurately reflected program costs under various budget line
items within each budget category. Examples of misclassification include:

   •   Personnel expenses and fringe benefits were misclassified as program evaluation
       expenses; and

   •   Member’s living allowances and worker compensation costs were misclassified as
       members FICA.

YMCA personnel indicated that they were unaware that this was an improper practice. We
did not question these costs because, once the amounts are correctly reclassified to the
correct budget line items, YMCA will not have exceeded its budget category limitation.

Criteria

The 2005, 2006, and 2007 Grant Agreements between ServeMinnesota and YMCA, Section
X.b. Expense Records, states, “The Subgrantee shall maintain books, records, documents,
and other evidence pertaining to the costs and expenses of implementing this Agreement to
the extent and in such detail as will accurately reflect all gross costs, direct and indirect costs,
of labor materials, equipments, supplies, and other costs and expenses of whatever nature.”


Recommendations

We recommend that the Corporation:

   5.a. Determine the allowability of the costs not approved in the budget and recoup any
        disallowed questioned costs and applicable administrative costs; and

   5.b. Instruct ServeMinnesota to develop adequate procedures and monitoring controls to
        ensure its subgrantees claim costs in accordance with the approved budget and
        classify costs correctly so that the approved budget is not circumvented.




                                                41
ServeMinnesota Response

ServeMinnesota indicated that Red Lake will follow the required procedure for a budget
revision in the future if there are costs that do not fall in a specific approved budget line item.
For SPNN, ServeMinnesota concurred that those contract costs should have been reclassified
in the budget approval process, rather than entered as personnel costs in the first program
year. For YMCA, accounting procedures have been adjusted to classify costs in the correct
budget areas.

ServeMinnesota provides annual fiscal training for all subgrantees. This training includes a
discussion of budget and approval requirements for budgetary changes. ServeMinnesota also
has a 3rd quarter match review, where it examines the source documentation for one month
that ties to the subgrantees’ reports. Each year, ServeMinnesota makes fiscal site visits with
its high-risk subgrantees to ensure that all of the supporting documentation is in order and is
correctly classified in their reports.

ServeMinnesota has always had procedures and monitoring controls in place. The auditors
review helped us to strengthen these procedures and controls.

Auditor’s Comment

ServeMinnesota’s planned actions with regard to the unbudgeted costs for Red Lake are
unclear although it plans positive action to avoid incurring costs without a corresponding
budget line item. The costs were questioned because they were not allocable/allowable in the
approved budget. The Corporation should take the recommended actions.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, ServeMinnesota, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.




Woodbridge, Virginia
March 6, 2008




                                                42
             APPENDIX A

ServeMinnesota’s Response to Draft Report
From: Audrey Suker [audrey@serveminnesota.org]
Sent: Wednesday, March 05, 2008 6:04 PM
To: James B. Elmore
Subject: Minnesota's Response to Draft IG Report

Attachments: Draft Recommendations Response (3).doc; Draft Report Errors.doc

Hello James,

I’ve attached Minnesota’s response to the Draft Report as well as a document that describes
some minor errors in the draft report.

Please let me know if you have questions about any of this or need any further information.

Audrey Suker
Executive Director
ServeMinnesota
431 South 7th Street, Suite 2540
Minneapolis, MN 55415
Phone: 612-333-7738
Fax: 612-333-7758
audrey@serveminnesota.org

ServeMinnesota is a catalyst for positive social change, working with AmeriCorps and
community partners to meet critical needs in Minnesota. ~ www.serveminnesota.org
                           OIG Recommendations
Recommendations - Pages 19 – 24

We recommend that the Corporation:

1.a.    Resolve the questioned costs and recoup any disallowed and applicable
administrative costs; and
1.b.    Ensure that ServeMinnesota trains and monitors its subgrantees in establishing
controls that specifically address the errors and weaknesses identified above. This effort
includes developing a record-keeping system such that grant documentation is retained and
readily accessible; develop policies and procedures to ensure costs claimed are properly
supported by its accounting records and source documentation; design controls to verify the
accuracy of costs claimed; design proper allocation methodology for costs; and implement
procedures requiring appropriate personnel to review FSRs before they are submitted. The
reviews should include tracing reported amounts on the FSRs to supporting documentation
and verifying the accuracy of the data through appropriately designed analysis.

ServeMinnesota’s Response
1.a.

Federal and match costs reported lack sufficient supporting documentation.

Admission Possible – Page 19 (match – 20,231)
Admission Possible agrees with the audit findings and acknowledges the errors made in
prior years. It should be noted that these variances and errors were not found in the
program year just ended. The staff members responsible for journal entries during that time
did not have accounting or finance backgrounds and had only limited accounting skills.
Given the small size of the organization the role encompassed multiple office and
administrative functions, not exclusively accounting. The organization continues to place an
increasing emphasis on staff competency with regard to accounting functions. Current
accounting staff members understand the importance and process of using source
documentation to generate financial entries. In addition to staff changes, Admission
Possible has also instituted financial system enhancements that provide more accurate
financial reporting. In prior years, FICA was not differentiated from other payroll taxes.
Today FICA is reported directly from payroll registers as a separate expense line item with
clear distinction between FICA related to staff members and AmeriCorps members. Further,
the organization has made financial system enhancements that allow for sub-accounts, e.g.
sub-accounts in the transportation line item that track expenses related to staff members
versus expenses for AmeriCorps members. The sub-account structure of the accounting
system now provides a more sophisticated mechanism for reporting different forms of
expenses. Admission Possible continues to place emphasis on ensuring that staff members
involved in grant accounting have a comprehensive understanding of the governing rules
and internal systems. The organization, as it grows, is increasing its capacity in the
accounting area and audit findings at the end of the period under review demonstrate a
noticeable improvement in that regard. The organization believes it has taken appropriate
measures to prevent a recurrence of these errors.




                                             1
Admission Possible had much more match then required, and even after removing these
questioned match costs from their financial reports they are still above the minimum match
requirements.

Duluth Area Family YMCA – Page 20 (Fed Costs – 411)
On two occasions of the overstated claims, numbers were reversed during clerical entry.
The duplicate entry was also a clerical error. The accounting department and the program
director do review the reports to try and minimize clerical errors

Minnesota Literacy Council – Page 20
(Match – 6,100)
MLC management agrees with this finding. In February of 2007 the payroll and general
ledger systems were re-designed in a manner to eliminate the risk of errors like this in the
future.

(Fed Costs – 567)
MLC management agrees with this finding. The payroll system was re-designed in February
of 2007 to accurately capture member costs by grant so the intermediate spreadsheet is no
longer needed to calculate costs. This will minimize the risk of errors.

This was a documented and allowable expense however it was in the wrong program year.

(Match – 2,465)
MLC management agrees with this finding. Management suggests replacing these costs
with other in-kind match that had not previously been reported.

St. Paul Neighborhood Network – Page 20-21
(Fed Costs - 8,365, Match Costs – 34,899)
The Sub-Grantee has changed reporting procedures to verify General Ledger and Payroll
Register amounts prior to reporting to the Commission.

After thorough review the program found they had additional match amounts for each
program year:
        Program Year 04-05: $5250 in program management costs donated to the program
        Program Year 05-06: $6131 in Equipment donated to the program
        Program Year 06-07: $6600 in Supervisor costs donated to the program

ServeMinnesota is in the process of collecting and reviewing this documentation.

(Fed Costs – 14,713, Match Costs – 2,596)
Computation errors occurred when the payroll register records were transferred to the
SERF. This was due to manually subtracting staff costs from the gross totals for the
program in the register to derive living allowance amounts. Following this audit, the Sub-
Grantee separated all staff costs from the register record to another department
classification to ensure this computation error will not occur in future.

The unsupported living allowances and FICA costs for the 2006-2007 program year, in the
amount of $9,596 Federal costs and $1,693 match costs have already been corrected.
ServeMinnesota had instructed the subgrantee to reduce their expense by these amounts
on their final report for that program year before the program year was closed.




                                             2
Costs claimed to the wrong grant.

Minnesota Literacy Council – Page 22 (Fed Costs – 1,600, Match costs – 282 over &
short between grants)
MLC management agrees that the living allowance was incorrectly distributed, however the
total costs were correct, and the net difference between the Formula and Competitive grants
is zero. The payroll system was re-designed in February of 2007 to accurately capture
member costs by grant so the intermediate spreadsheet is no longer needed to calculate
costs. This will minimize the risk of errors.

(Fed costs – 7,653)
The non-salary/benefit related common cost for PY 2006-2007 were incorrectly allocated
based on budgeted percentages of salaries. This was a departure from the PY 2004-2005
and PY 2005-2006 methodology which allocated these types of costs based on the number
of members under each grant, and has since been corrected.

St. Paul Neighborhood Network – Page 22-23 (Match – 5,900)
St. Paul Neighborhood Network management agrees with this finding, and it was corrected
in subsequent years. The subgrantee had match over the required amount in sections 1 &
3, and even after removing this amount from their report they are still above the minimum
match required in sections 1 & 3.


Credits not applied.

Admission Possible – Page 23 (Match – 3,116)
Admission Possible acknowledges the errors in applying credits against reported expenses
in prior years. It should be noted that the variances and errors were not found during the
program year just completed. The organization has made efforts to build its accounting
capacity. As the organization grows, the staff roles become more specialized. This role
specialization allows for a more complete and comprehensive understanding of reporting
and accounting requirements. Admission Possible has also taken steps to improve
standard procedures to match credits with corresponding expenses. The organization more
fully utilizes the functionality of its accounting software to aid in that effort. As an example,
the reimbursement received from Southwest State University that was missed would not
occur in the systems and procedures environment today. Today when a check is issued to
pay the expense, immediately a receivable is generated for the college or university that will
be reimbursing Admission Possible. We are no longer reliant on remembering that an
applicable credit will be received at a future date.

Admission Possible had much more match then required, and even after removing these
questioned match costs from their financial reports they are still above the minimum match
requirements.

Duluth Area Family YMCA – Page 23 (Match Costs – 1,294)
This issue resulted from the timing of payments, and getting them credited back to the
correct line items. Our accounting system has been adjusted to make sure that credits are
applied to the correct line items.

The subgrantee was above their minimum match requirements, and even after reducing the
match costs by these amounts, they are still above their minimum match requirements.



                                               3
Minnesota Literacy Council – Page 24 (Fed Costs – 417, Match – 73)
MLC management agrees with this finding. Since the payroll system was re-designed, it will
be easier to compare YTD numbers from the payroll system to the general ledger to
minimize the risk of errors of this sort.

1.b.    ServeMinnesota provides an annual fiscal training for all of the subgrantees. This
year that training included having the subgrantees bring the general ledgers from their
accounting systems and their financial report (SERF) for that same time period and making
sure that they knew both how these reports should tie together and that they did tie together.
Also, making sure that if they did not tie together they must be able to explain any variances.
We also have a 3rd quarter match review, where we examine the source documentation for
one month that ties to the subgrantees reporting. Each year we also have fiscal site visits
with our high risk subgrantees to make sure that all of there supporting documentation is in
order. This year we also implemented an enhanced monitoring system that each of our
subgrantees must complete which includes among others, systems on Financial
Management, Documentation of Matching Funds, and Reimbursement. Completing these
systems includes documenting their procedures for each of those items, and reporting who
is responsible for those tasks. At the end of each program year all of our subgrantees must
complete a close out form which includes telling us where the previous years documentation
will be stored, and who the contact person will be if that documentation must be accessed.

For our sub-grantees, the total amount of Federal share questioned costs over the six
organizations that were audited was $51,495 for an average of $8,583/grantee or .005 of the
total amount audited. The audit also included examining the matching requirements of the
federal awards. For us as an organization we had no questioned costs associated with our
matching funds. Across our six sub-grantees there was a total of $104,648 of matching
funds that were questioned for an average of $17,441/grantee or .011 of the total claimed
costs.

Recommendations - Pages 25-27

We recommend that the Corporation:

2.a.    Disallow and recoup the questioned costs and applicable administrative costs;
2.b.    Train ServeMinnesota and its subgrantees regarding applicable cost principles and
grant regulations; and
2.c.    Instruct ServeMinnesota to develop and implement procedures and controls to
ensure that claimed costs are allowable and allocable in accordance with applicable costs
principles, including thorough reviews of costs claimed on FSRs to supporting
documentation to determine allowability. Once implemented, review costs claimed to ensure
that the procedures are effective.

ServeMinnesota’s Response
2.a.   In the spirit of promoting service and volunteerism ServeMinnesota believes it is
important to provide recognition to volunteers willing to give significant time to ensure the
success of AmeriCorps programming in Minnesota.                Consistent with this belief,
ServeMinnesota has provided $20 - $25 dollar gift cards to individuals who have served as
peer reviewers and have provided approximately 16 hours of time to make a meaningful
contribution to this process.




                                              4
Regarding the auditors questioning of costs associated with lobbying ServeMinnesota
continues to believe that the activities were educational and not lobbying. ServeMinnesota
does agree that a $200.00 expense that was for catering services should not have been
charged to federal funds and is in agreement that $200.00 should be returned to CNCS.

2.b.    ServeMinnesota’s findings regarding allowability of expenses were not due to lack of
training or understanding of cost principles but rather differences in interpretation.

Management response from our subgrantees is as follows:

Admission Possible – Page 26 (Match – 5,459)
Admission Possible acknowledges with errors found in claiming unallowable match costs in
prior years. It should be noted that those errors were not discovered in the program year
just ended.     The inclusion of unallowable entertainment costs was a result of a
misinterpretation of the governing rule. The inclusion of unallowable fundraising costs was a
result of an entry error into the financial software. Admission Possible understands the
importance of grant management and application of governing rules. The organization has
taken steps to increase its staff capacity in both the grant management and grant
accounting functions. Further, the organization has made financial system enhancements
that make class accounting easier to understand and apply. The class structure of the
accounting system now provides clear distinction for expenses that are includible and
allowable under the grant from expenses that are unallowable. Admission Possible
continues to place emphasis on ensuring that staff involved in grant management and
accounting have a comprehensive understanding of the governing rules and its internal
systems. It has developed systems whereby the class assignment of an expense is
reviewed by at least two staff members with appropriate skill and understanding to ensure
compliance with the governing rules and regulations.

Admission Possible had much more match then required, and even after removing these
questioned match costs from their financial reports they are still above the minimum match
requirements.

CommonBond Communities – Page 26 (Fed Costs – 25)
CommonBond has already reduced its claimed reimbursable costs in the amount of $25 for
the identified unallowable costs in program year 2006-2007. We will not claim another cost
like this for reimbursement.

2.c.    As noted in 2 b. ServeMinnesota does have procedures and controls and the audit
has provided clarification on items where there is room for varying interpretations of cost
principles.

Recommendations - Page 28-33

We recommend that the Corporation:

3.a.   Verify that ServeMinnesota develops and implements more effective control
procedures and closely monitors its subgrantees to ensure prompt and complete financial
and programmatic reporting, as well as member evaluations, in accordance with the
ServeMinnesota requirement;
3.b.   Instruct ServeMinnesota to follow up with Red Lake to ensure that its members
received an evaluation.



                                             5
3.c.    Instruct ServeMinnesota to provide a refresher course for its subgrantees on
program compliance requirements, including report submissions, documenting member
orientations, and the important role training and evaluations play in member development.

ServeMinnesota’s Response
3.a.    All subgrantees understand the reporting requirements and will take appropriate
corrective measures to ensure that future reporting remains in compliance. ServeMinnesota
has implemented a new policy regarding timeliness of reporting and meeting deadlines.

All programs are required to meet due dates for reporting, document submissions, SERFS,
closeout forms, surveys, RSVPs for meetings and any additional requests made by both
ServeMinnesota and CNCS.

Reasonable requests for extensions must be made in writing to subgrantee’s Program
Officer prior to the due date and will be granted on a case by case basis. Late reporting
without written permission for an extension will result in withholding of the program’s
payment (until obligation is fulfilled) and will impact recommendations to CNCS for continued
program funding.

3.b.   On November 11, 2007 Red Lake program staff faxed copies of 2 of the 4 missing
member evaluations as requested by the auditor. ServeMinnesota staff had a conversation
with Red Lake clarifying that half time members are required to have 2 evaluations. This
information was also reviewed by ServeMinnesota staff at a site visit on 12/11/07.

3.c.   ServeMinnesota has always provided training for it’s subgrantees on program
compliance and member development at the start of each program year.

We have now implemented an enhanced monitoring system which requires programs to
standardize their operations. This instrument consists of fourteen systems, each tailored to
a particular area of program or grants management. ServeMinnesota staff individually
reviews all 14 systems for each subgrantee.

This tool provides the following:
   • A point of intervention whereby program and ServeMinnesota staff can address
       operational challenges pertaining to grants management.
   • Identifies program operations to ensure standardization and in some cases program
       compliance of some AmeriCorps Provisions.
   • Serves as a model for prospective programs to see the operational systems that are
       required to administer an AmeriCorps program.

Recommendations - Page 33-36

We recommend that the Corporation:

4.a.    Disallow and recoup, if used, education awards and any interest forbearance for
members that did not complete their service;
4.b.    Ensure that ServeMinnesota provides training to the subgrantees so they (1) are
familiar with program requirements and provisions for updating members status in WBRS or
other applicable systems, including members who exit the program early; and (2) do not
include member service hours without a signed AmeriCorps contract; and




                                             6
4.c.   Instruct ServeMinnesota to strengthen controls and monitoring over member
timesheet preparation.

ServeMinnesota’s response
4.a. During the exit conference ServeMinnesota was encouraged to direct program staff to
have members make up missing hours. We had 2 programs with questioned Ed awards;
Red Lake and Duluth YMCA.
 The auditor created a spreadsheet to reconcile Red Lake member timesheets with what
was entered into WBRS. This spreadsheet indicated a variance in hours from the totals on
the timesheets and the amounts reported in WBRS to the Corporation. The variance from
the actual timesheet totals to the required 1700 hours were 7.9 hours for one member and
32.4 hours for another member
One member has already served the additional 7.9 hours at the Red Lake Head Start
Site. There is a timesheet with the member’s and supervisor’s signature verifying this.
One member intends on making up these hours but is working with the program and a site
to work out this schedule. He has accessed his award in the amount of $3,714
Duluth YMCA had a member that left orientation early for personal reasons and served 11
hours prior to signing her contract. At the end of the year she had over served by 6.5 hours
resulting in a shortfall of 4.5 hours. The member is willing to make up those hours to fulfill
her term.
4.b.    ServeMinnesota has always provided training for its sub grantees so that they are
familiar with program requirements and provisions for updating member’s status in WBRS.
(moving forward this will be done for the My AmeriCorps portal and ServeMinnesota’s online
reporting system which is replacing many functions of WBRS)

We have also implemented an enhanced monitoring system which requires programs to
standardize their operations. This instrument consists of fourteen systems, each tailored to
a particular area of program or grants management. ServeMinnesota staff individually
reviews all 14 systems for each sub grantee and provides feedback to ensure compliance.

4.c.    ServeMinnesota has implemented a new electronic timekeeping system which
provides a secure (password protected) reporting system for member timesheets. Unique
features of this system include: separate tracking of service hours, fundraising hours and
training hours and an automatic calculation of hours which eliminates mathematical errors.

Recommendations - Page 36-38

We recommend that the Corporation:

5.a.    Determine the allowability of the costs not approved in the budget and recoup any
disallowed questioned costs and applicable administrative costs; and
5.b.    Instruct ServeMinnesota to develop adequate procedures and monitoring controls to
ensure its subgrantees claim costs in accordance with the approved budget and classify
costs correctly so that the approved budget is not circumvented.

ServeMinnesota’s Response
5.a.

Red Lake Band of Chippewa – Page 36 (Fed Costs – 3,246)
If there are costs that do not fit in a specific line item, we will follow the prescribed procedure
for a revision. We will ensure that this is not an issue in the future. The auditors did



                                                7
acknowledge that there was proper documentation for these costs, and they were an
allowable cost.

St. Paul Neighborhood Network – Page 37 (Fed Costs – 16,665, Match – 22,515)
These contract costs should have been reclassified in the budget approval process rather
than entered as personnel costs in the first year. This problem was due to starting up as a
new program and the need to use contractors as staff. In the second program year, the
budget categories were changed to reflect these categories. The contractors were
functioning as staff, it was an allowable expenditure that would have been approved if a
budget change had been requested.

Duluth Area Family YMCA – Page 37
This issue results from an effort to have expenses inline with the budget, and changes in
staffing during the program year. Our accounting procedure has been adjusted to classify
costs in the correct budget areas.

5.b. ServeMinnesota provides an annual fiscal training for all of the subgrantees. This
training includes discussing the budget and when changes to budget require approval. We
also have a 3rd quarter match review, where we examine the source documentation for one
month that ties to the subgrantees reporting. Each year we also have fiscal site visits with
our high risk subgrantees to make sure that all of there supporting documentation is in order
and is correctly classified in their reporting. ServeMinnesota has always had procedures
and monitoring controls in place, the inspector general audit has helped us to be stronger in
implementing these procedures and controls.




                                             8
                          APPENDIX B

Corporation for National and Community Service’s Response to Draft
                              Report
                                           NATIONAL &
                                           COMMUNITY
                                           SERVICE~


 To:             Carol Bates, Assistan~~or General for Audit

 From:           M g              ~~Management
 Cc:             Krist         ain, Director o~rps
                 Sherry Blue, Audit Resolution Coordinator

 Date:           March 6, 2008

 Sub:            Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to Serve
                 Minnesota


 Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
 Corporation's Grants awarded to Serve Minnesota.

. The Office of Grants Management does not have specific comments at this time. The
  Corporation will address all of the findings during audit resolution after the audit is issued as
  final.                                                .
